No. 20-1120

IN THE

States

Supreme Court of tfje
MELISSA BELGAU, ET AL.,

Petitioners,
v.
JAYTNST.EE, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, ET AL.,

Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE
I, MATTHEW J. MURRAY, a member of the Bar of
this Court, hereby certify per Supreme Court Rule 29.5(b)
and the parties’ agreement to accept electronic service, that
on May 12, 2021, a true and correct electronic copy of the
Brief in Opposition of Respondent Washington Federation of
State Employees, AFSCME Council 28 in Belgau, et al . v .
Inslee , et al ., No. 20-1120, was sent, via electronic mail, to
the following e - mail addresses:
James G. Abernathy
c/o Freedom Foundation
PO Box 552
Olympia, WA 98507
(360) 956-3482
JAbernathy@fre e domfoundation.com
J amesGAbernathy@gmail.com
Counsel for Petitioners Melissa Belgau, et al.

Alicia Orlena Young
Washington Office of the Attorney General
1125 Washington Street, SE
PO Box 40100
Olympia, WA 98504
(360) 586- 2697
alicia.young@atg.wa .gov

Counsel for Respondents Jay Inslee, et al.

I further certify that all parties required to be served
have been served.
Dated: May 12, 2021
Matthew J. Murray
ALTSHULER BERZO'N LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421 7151
mmurray@altber .com
Counsel for Respondent Washington
Federation of State Employees, AFSCME
Council 28

-

2

